CERTIFICATE OF SERVICE
I certify that on 12 day of July of 2020 the copy of the brief has been emailed and
mailed to the following:

Rehmer
16533 N.State Hwy 5, PO Box 431,
Sunrise Beach, MO 65079

Respectfully submitted,

Alla A Zorikova

12 day of July of 2020

22

No.

IN THE
SUPREME COURT OF THE UNITED STATES

PETITIONER
(Your Name)
VS.
— RESPONDENT(S)

, do swear or declare that on this date,
, 20^, as required by Supreme Court Rule 29 I have
4^
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

The names and addresses

Sicr/sZ'

those served are as follows:

* Mi?

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

, 2<L^-£?

2>
'■e/rz^ey

PETITIONER’S CERTIFICATE OF COMPLIANCE
COMES NOW PETITIONER, Alla Zorikova, acting Pro-Se, and certifies that Writ of
Certorary has 18 pages in complayance with local rules of this court.

Respectfully submitted,

Alla A Zorikova

12 of July of 2020

23

